GINAL

20No.

THE SUPREME COURT OF THE UNITED STATES.
HOLLY MACINTYRE
Petitioner,

FILED
MAR 1 8 2021

v.

JP MORGAN CHASE BANK, N.A •>
Respondent.
On Petition for a Writ of Certiorari to
The United States Court of Appeals
For the Tenth Circuit

PETITION FOR A WRIT OF CERTIORARI

HOLLY MACINTYRE
Petitioner pro se
2991 Harrogate Way
Abingdon, MD 21009
410.967.4051
hollymac2@yahoo.com

l

RECEIVED
MAR 2 2 2021
OFFICE OF THE CLERK
SUPREME COURT. US.

I.

1.

QUESTIONS PRESENTED

Whether a plaintiff in a diversity case who seeks monetary relief — for

damages emanating from the defendant’s fraud in procuring a state-court judgment
— thereby triggers application of the Rooker-Feldman doctrine because he is
“necessarily” seeking federal review and rejection of the judgment itself, despite the
fact the requested relief would leave the judgment in full force and effect.

2.

Whether a federal court, which would have been sitting in diversity if

not for a federal jurisdictional doctrine inapplicable in the state judiciary, may
nonetheless invoke the state’s fee-shifting statute to award attorneys’ fees against
the federal plaintiff, and may do so admittedly without ever having had subject
matter jurisdiction.

2

TABLE OF CONTENTS

I.

QUESTIONS PRESENTED

3

II.

TABLE OF AUTHORITIES

4

III.

PETITION FOR WRIT OF CERTIORARI

IV.

OPINIONS BELOW.

V.

JURISDICTION

VI.

STATEMENT OF THE CASE

VII.

REASONS FOR GRANTING THE PETITION

VIII. CONCLUSION

6

6
6
7

15

16

APPENDICES:
Appendix A — Order and Judgment — Tenth Circuit
Appendix B — Order of Dismissal — U. S. District Court
Appendix C —Order Granting Attorneys’ Fees — U.S. District Court
Appendix D — Order Denying Rehearing on Fees—U.S. District Court

3

!

II.

TABLE OF AUTHORITIES

Cases:
Campbell v. City of Spencer,
682 F.3d 1278 (10th Cir. 2012)

10

Exxon Mobil v. Saudi Basic Industries,
544 U.S. 280 (2005)
11, 15
Infant Swimming Research v. Faegre & Benson,
335 F.App’x 707 (10th Cir. 2009)...............
In re Otasco,
18 F.3d 841 (10th Cir. 1994)

13

8

Jones v. Denver Post,
203 F.3d 748 (10th Cir. 2000)

14

Lopez v. United States,
823 F.3d 970 (10th Cir. 2016)

9

Lorillard Tobacco Co. v. Engida,
611 F.3d 1209 (10th Cir. 2010)

13, 14

Loubser v. Thacker,

12

440 F.3d 439 (7th Cir. 2006)
Mayotte v. U.S. Bank,
880 F.3d 1169 (10th Cir. 2018)

10, 11

Mo’s Express v. Sopkin,
441 F.3d 1229 (10th Cir. 2006)

10

Nesses v. Shepard,
68 F.3d 1003 (7th Cir. 1995)
Sebelius v. Auburn Reg. Med. Ctr.
133 S.Ct. 817 (2013)............

13

9

4

Truong v. Bank of America,
111 F.3d 377 (5th Cir. 2013)
United States v. Munsingwear,
340 U.S. 36 (1950)..........

11, 12

7

Van Schaack Holdings v. Fulenwider,
798 P.2d 424 (Colo. 1990)..........

7

Venable v. Haislip,
721 F.2d 297 (10th Cir. 1983)

10

Vossbrinck v. Accredited Home Lenders,
773 F.3d 423 (2nd Cir. 2014)........

12

Williams v. Life Savings and Loan,
802 F.2d 1200 (10th Cir. 1986)

9

Statutes:
C.R.S. § 13-17-201
28 U.S.C. § 1254(1)

8, 9, 13
6

Rules:
Fed.R.Civ.P. 59(e)
Fed.R.Civ.P. 60(b)(4)

8, 9
10

5

III.

PETITION FOR A WRIT OF CERTIORARI

Petitioner, Holly MacIntyre, respectfully seeks a writ of certiorari to review
the Order and Judgment of the United States Court of Appeals for the Tenth
Circuit.
IV.

OPINIONS BELOW

The Order and Judgment of the Tenth Circuit affirming the United States
District Court for the District of Colorado is unpublished, was issued on September
10, 2020, and is attached as Appendix A. The District Court’s Order dismissing the
case is attached as Appendix B. The Order Granting Attorneys’ Fees is Appendix C.
The Order Denying Rehearing on Fees is Appendix D.

V.

JURISDICTION

The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1). The
Order and Judgment of the Tenth Circuit, for which review is sought, was issued on
September 10, 2020. The Tenth Circuit then extended the time to file a Petition for
Rehearing, which was timely filed, but denied on October 19, 2020. One hundred
fifty days thereafter, this Petition for a Writ of Certiorari is being timely filed on
March 18, 2021, pursuant to the Supreme Court’s Order of March 19, 2020, 589
U.S.__ (2020).

6

VI.

STATEMENT OF THE CASE

On January 18, 2019, in the United States District Court for the District of
Colorado, MacIntyre filed a diversity Complaint against JP Morgan Chase Bank
(“Chase”) asserting causes of action under Colorado law. She specifically alleged
that Chase had used falsified legal instruments in winning a state-court judgment
of judicial foreclosure against her four years earlier. In 2016, while the appeal of
that judgment was pending in the Colorado Court of Appeals, her residential real
estate had been sold, as ordered by the trial court. Ignoring the sale, which had
actually mooted the appeal, the Colorado Court of Appeals nonetheless affirmed the
judgment. MacIntyre then sought certiorari review in the Supreme Court of
Colorado, which, in January 2017, granted her Suggestion of Mootness and
dismissed the case.
Because Chase had successfully opposed all of her attempts to stay the
foreclosure sale, and the state courts had refused to grant a stay on any terms, the
mootness of her appeal had been involuntarily inflicted. That meant the Colorado
Court of Appeals had a “duty” to “reverse or vacate the judgment below and remand
with a direction to dismiss.” Van Schaack Holdings v. Fulenwider, 798 P.2d 424,
427 (Colo. 1990), quoting United States v. Munsingwear, 340 U.S. 36, 39-40 (1950).
In the event the state appellate court declined to perform this “duty”, MacIntyre
would then be compelled to seek an “exception” to the preclusive effect of the
7

unvacated judgment. In re Otasco, 18 F.3d 841, 844 (10th Cir. 1994). Anticipating
state-court aversion to this “duty”, she filed the aforementioned federal Complaint
against Chase and made it expressly contingent upon the outcome of a forthcoming
judgment-vacation request in the state courts. If that request was granted, she
informed the federal court, she would not require federal relief. If it was denied,
then she would require it: an exception to the preclusive effect of the unvacated
judgment and, once that was obtained, monetary damages for fraud.
All of this planning went awry. Before a motion to vacate had been filed in
the Colorado Court of Appeals, Chase—which had not yet been served with the
Complaint—discovered it on PACER, entered an appearance, decreed an unsought
and alleged “waiver” to service, and filed a motion to dismiss for lack of subject
matter jurisdiction due to the Rooker-Feldman doctrine. When the motion to vacate
was finally filed, the Colorado Court of Appeals promptly denied it on April 11,
2019. Refusing to await the outcome of a rule to show cause in the Colorado
Supreme Court (on which the Complaint was expressly contingent), the federal
District Court dismissed the case on Rooker-Feldman grounds. MacIntyre’s Rule
59(e) motion to alter or amend judgment was denied—with one minor exception not
relevant here—on July 17, 2019.
While MacIntyre’s appeal (No. 19-1290) was pending in the Tenth Circuit,
Chase sought attorneys’ fees pursuant to Colorado’s fee-shifting statute, C.R.S. §
13-17-201. On October 10, 2019, the District Court, finding the state statute
8

applicable to this would-be diversity case, awarded Chase its fees, but reduced the
requested amount by 25%. MacIntyre filed a Rule 59(e) motion to reconsider the
award on jurisdictional grounds. Because the District Court lacked subject matter
jurisdiction to adjudicate what would have been a diversity case with access to
Colorado statutes, it actually had no access whatsoever to any of them, including
C.R.S. § 13-17-201. In denying the Motion to Reconsider, Appendix D, on December
11, 2019, the court stated, page 3, that it was “not appropriate for the Court to
entertain the argument” because it could have been raised earlier in MacIntyre’s
response to Chase’s fee-award motion, and regardless, “is incorrect.” In fact, on
page 3 of her November 29, 2019, reply to Chase’s response opposing
reconsideration, MacIntyre had already explained that the timing of her
jurisdictional argument cannot, by definition, be inappropriate:
The essence of the Motion to Reconsider is a purely jurisdictional
challenge to this Court’s ability to award attorney’s fees and thus “can
be raised at any time.” Lopez v. United States, 823 F.3d 970, 975 n. 6
(10th Cir. 2016), citing Sebelius v. Auburn Reg. Med. Ctr., 133 S.Ct.
817, 824, 184 L.Ed.2d 627 (2013). If this Court deems a Rule 60(b)
motion to be more appropriate—it is perfect for addressing a judgment
that is void for lack of jurisdiction—then it may unquestionably
construe the Motion to Reconsider as a Motion to Vacate instead. In
either event, when subject matter jurisdiction is lacking, it cannot be
conferred for any reason, certainly not by an alleged error, and most
certainly not because a litigant supposedly used the wrong rule
number in her motion.
“A judgment is void when a court enters it lacking subject matter
jurisdiction or jurisdiction over the parties.” Williams v. Life Savings
and Loan, 802 F.2d 1200, 1202 (10th Cir. 1986). “If the underlying
judgment is void for lack of personal or subject matter jurisdiction. . .
9

the district court must grant relief’ under Rule 60(b)(4). Venable v.
Haislip, 721 F.2d 297, 300 (10th Cir. 1983).
MacIntyre appealed the fee award to the Tenth Circuit in a separate case,
No. 20-1016. Chase’s motion to consolidate the appeals was denied. Yet the Tenth
Circuit ultimately reunited the twin appeals into the present case comprising both
the dismissal and the fee award, affirming both on September 10, 2020. A Petition
for Rehearing and Rehearing En Banc was denied on October 19, 2020
With respect to the dismissal, the Tenth Circuit gave three reasons for the
application of Rooker-Feldman. First, MacIntyre’s allegation of fraud in the
procurement of the state-court judgment “depends on a federal court finding that
the state courts erred in entering judgment for Chase,” and “an element of [her]
claim” is “that the state court wrongfully entered its judgment” (quoting Campbell
v. City of Spencer, 682 F.3d 1278, 1283 (10th Cir. 2012). Appendix A at 10. Second,
she cannot “prove her claims without any reference to the state-court proceedings”
(quoting Mayotte v. U.S. Bank, 880 F.3d 1169, 1176 (10th Cir. 2018). Id. at 10-11.
Third, a judgment for monetary damages “would necessarily undo the Colorado
court’s judgment because it would place her back in the position she occupied prior
to the foreclosure.” (Quoting Mo’s Express v. Sopkin, 441 F.3d 1229, 1237 (10th Cir.
2006)(brackets omitted). Id. at 11-12.
The Tenth Circuit’s analysis is factually and legally untenable. First, in her
pre-foreclosure-sale position, MacIntyre owned residential real estate. Monetary

10

relief would obviously not “place her back in” that position. (Inconsistently, the
Tenth Circuit in Mayotte at 1176 reached the opposite conclusion: Rooker-Feldman
did not prevent the plaintiff from suing in federal court for the restoration of a
property foreclosed upon in a state-court proceeding). Second, nothing in the
Supreme Court’s clarification of the Rooker-Feldman doctrine in Exxon Mobil v.
Saudi Basic Industries, 544 U.S. 280 (2005) comes close to imposing the Tenth
Circuit’s unique requirement to “prove. . .claims without any reference to the statecourt proceedings”. Third, although a fraud claim in a Tenth Circuit diversity case
automatically triggers the application of Rooker-Feldman, in the Fifth Circuit it
does not, as long as it “is an independent claim.” Truong v. Bank of America, 717
F.3d 377, 384 n. 6 (5th Cir. 2013). As the Fifth Circuit explained at 383-84:
In sum, Truong has alleged that BOA and Wells Fargo (1) misled the
state court into thinking that the executory process evidence was
authentic when, in fact, it was not; and (2) misled her into foregoing
her opportunity to dispute authenticity in the state-court proceedings.
These are independent claims over which the district court had
jurisdiction; Truong did not seek to overturn the state-court judgment,
and the damages she requested were for injuries caused by the banks'
actions, not injuries arising from the foreclosure judgment, (citations
omitted).
To be sure, the banks’ actions allegedly led to a state-court judgment
that inflicted further injury on Truong. But as one of our sister circuits
has stated, although the damages recoverable through an independent
claim might be limited by preclusion principles, “[t]he RookerFeldman doctrine does not...turn all disputes about the preclusive
effects of judgments into matters of federal subject-matter jurisdiction.

The Fifth Circuit also observed at 383 (emphasis added, internal quotation marks
11

omitted) that “[b]ecause Truong did not seek to reverse or void the adverse
foreclosure judgment, her request for a declaration that Wells Fargo and BOA
lacked the necessary authentic evidence to support the use of executory process did
not deprive the district court of jurisdiction.”
What works quite well in the Fifth Circuit would not work at all in the Tenth
Circuit. Because a claim about fraud in a state court is automatically seen as a
direct attack on the judgment issued by that court, no plaintiff can ever convince
the Tenth Circuit that the claim is “independent” and thus exempt from RookerFeldman. Because monetary damages, which would leave the state-court judgment
in place, are indiscriminately seen to “undo” that very judgment, one wonders what
relief Rooker-Feldman would not prohibit in the Tenth Circuit. Because a plaintiff
is not allowed even to mention the state-court proceeding, in the Tenth Circuit
“Rooker-Feldman”is a pseudonym for “collateral estoppel”.
Nor is the Fifth Circuit alone in its correct interpretation of Rooker-Feldman.
See, for example, Vossbrinck v. Accredited Home Lenders, 773 F.3d 423, 427 (2nd
Cir. 2014): “. . . Vossbrinck’s pro se complaint can be liberally construed as
asserting fraud claims that are not barred by Rooker-Feldman—because they seek
damages from Defendants for injuries Vossbrinck suffered from their alleged fraud,
the adjudication of which does not require the federal court to sit in review of the
state court judgment. . .” See also Loubser v. Thacker, 440 F.3d 439, 441-42 (7th
Cir. 2006):
12

The claim that a defendant in a civil rights suit “so far succeeded in
corrupting the state judicial process as to obtain a favorable judgment”
is not barred by the Rooker-Feldman doctrine. Nesses v. Shepard, 68
F.3d 1003, 1005 (7th Cir. 1995). Otherwise there would be no federal
remedy other than an appeal to the U.S. Supreme Court, and that
remedy would be ineffectual because the plaintiff could not present
evidence showing that the judicial proceeding had been a farce.

With respect to the second question presented above, the District Court, in its
order granting attorneys’ fees to Chase, had relied upon two Tenth Circuit cases.
But on page 4 of its order denying reconsideration, (Appendix D), it acknowledged
that only one applied: a case of attorneys’ fees awarded under Colorado’s feeshifting statute, despite dismissal for lack of subject matter jurisdiction: Infant
Swimming Research v. Faegre & Benson, 335 F.App'x 707, 715 (10th Cir. 2009).
Infant Swimming, besides being unpublished, offers no clue as to how a court
lacking subject matter jurisdiction over a would-be diversity case finds the
jurisdiction to utilize C.R.S. § 13-17-201. The Tenth Circuit—which, despite the
District Court’s reservations on page 9 above, did review the issue on pages 17 of
Appendix A—completely ignored the unhelpful Infant Swimming and cited instead
Lorillard Tobacco Co. v. Engida, 611 F.3d 1209, 1217 (10th Cir. 2010)(alterations
omitted): “A district court need not have subject matter jurisdiction to award
attorney’s fees pursuant to Colo. Rev. Stat. § 13-17-102.” That, of course, is utterly
incorrect in the circumstances of the present case. Lorillard was voluntarily

13

dismissed by the plaintiff, not involuntarily dismissed by the court for lack of
subject matter jurisdiction. Nor may a federal court ever gain access to a state
statute, including a fee-shifting statute, unless it is actually exercising diversity
jurisdiction, which the District Court in this case insists it never was. This
misapplication of Lorillard violates the long-established Tenth Circuit rule in Jones
v. Denver Post, 203 F.3d 748, 757 (10th Cir. 2000)(emphasis added): “When
exercising jurisdiction,” the Tenth Circuit stated, “if our jurisdiction rested on
diversity of citizenship” then “we must apply the substantive law of the forum
state.” That is the rule throughout the United States. The Tenth Circuit was never
exercising diversity jurisdiction. It awarded attorneys’ fees as if it were.

14

VII.

REASONS FOR GRANTING THE PETITION

It is clear that the Tenth Circuit is not heeding Justice Ginsburg’s precise
clarification of Rooker-Feldman: a doctrine that is “confined to. . . cases brought by
state-court losers complaining of injuries caused by state-court judgments rendered
before the district court proceedings commenced and inviting district court review
and rejection of those judgments.” Exxon Mobil, 544 U.S. at 284. The Tenth
Circuit’s unique ideas about the doctrine place it in conflict with the Second, Fifth,
and Seventh Circuits. On the subject of attorneys’ fees, the Tenth Circuit is in
conflict with all others. No other circuit, having affirmed a dismissal for lack of
subject matter jurisdiction emanating from a federal doctrine, then claims a right to
award attorneys’ fees under a state statute, without ever having exercised diversity
jurisdiction. The Supreme Court has not yet addressed this specific issue.

15

3
1

i

i

1

VIII. CONCLUSION
*

The Petitioner respectfully requests that the Supreme Court grant this

I*

Petition as to both questions presented.

>:

Respectfully submitted on this eighteenth day of March, 2021.

i

\

i
■I

1

m

/

Molly Maclnwre
Petitioner/pro se
2991 Harrogate Way
Abingdon, MD 21009
410.967.4051
hollym ac2@y ahoo. com

1

i
i

-5

■>

16
:?

I
::s

